SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                                   FEDERAL COMMUNICATIONS
COMMISSION




TABLE OF CONTENTS


I.            INTRODUCTION....................................................................................... 2

II.           AUDITS ...................................................................................................... 5

III.          INVESTIGATIONS.................................................................................... 9

IV.           MANAGEMENT AND ADMINISTRATION. . . . . . . . . . . . . . . .                                           . . 12

V.            SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a)                              .......
              OF THE INSPECTOR GENERAL ACT ................................................... 14


ATTACHMENTS

A.            TABLE I: OIG AUDIT REPORTS WITH QUESTIONED COSTS....... 17

B.            TABLE II: OIG AUDIT REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE ............................................. 18




_________________________________________________________________
October 1995 - March 1996                                                                                          PAGE 1
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION




INTRODUCTION
The Federal Communications Commission (FCC) is an independent regulatory agency
exercising authority delegated to it by Congress under the Communications Act of 1934, as
amended. The FCC is charged with regulating interstate and international communications
by radio, television, wire, satellite and cable. The FCC's jurisdiction covers the fifty states,
the District of Columbia, and U.S. possessions. The mandate of the FCC under the
Communications Act is to make available to all people of the United States a rapid, efficient,
nationwide, and worldwide wire and radio communication service. The FCC performs four
major functions to fulfill this charge:

        spectrum allocation;
        creating rules to promote fair competition and protect consumers where
        required by market conditions;
        authorization of service; and
        enforcement.

As of March 31, 1996, the FCC had 2062 full-time equivalent employees (FTEs), most of
whom are in located in Washington, D.C. FCC Field Offices are located throughout the
United States.

The Chairman and four Commissioners are appointed by the President and confirmed by the
Senate. Reed E. Hundt has been the Chairman of the FCC since November 1993. As of the
time of this report, the FCC has three sitting Commissioners; James H. Quello, Rachelle B.
Chong, and Susan P. Ness. Former Commissioner Andrew C. Barrett left the Commission
effective March 30, 1996.

On February 8, 1996, President Clinton signed into law the Telecommunications Act of
1996, (Pub.L.No.104-104). This Act represents the first major overhaul of
telecommunication law in almost 62 years. The Act is targeted at ensuring universal service
to all Americans and revises rules related to media ownership and phone service. The Act
also includes a provision calling for the installation of a V-chip in every new television. The
Commission will be active in the coming months in developing the rules necessary to
implement this new law.



_________________________________________________________________
October 1995 - March 1996                                                                PAGE 2
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                  FEDERAL COMMUNICATIONS
COMMISSION


As identified in our previous semiannual report, the Chairman proposed a field office
restructuring plan that would result in the closure of nine attended frequency monitoring
stations and three additional monitoring sites located at FCC field offices. This streamlining
initiative calls for the replacement of these stations with a national automated monitoring
network whose network central station will be located at the existing Columbia, Maryland
facility. The plan also calls for the closure of nine of the 25 existing field offices as well as
three of the six regional offices. Two technical staff members will continue to be assigned
as resident agents in the nine locations in which field offices will be closed. On October 13,
1995, the Commission voted 4-1 to support the planned organizational restructuring.
Overall, authorized staffing within the effected Bureau, the Compliance & Information
Bureau (CIB), will decrease by about one-third, from 384 to 254 positions as a result of the
restructuring of field operations. The plan was reviewed and approved by the House and
Senate Appropriations Committees.

As a component of the reorganization, which is projected to result in annual savings of eight
million dollars, the Commission will open a nation-wide call center to be housed in the
existing FCC facility located in Gettysburg, Pennsylvania. This call center opening in June
1996, will serve as the Commission's contact point for those parties seeking information
about the FCC and all facets of Commission operations. The overall goal of this
clearinghouse operation is for the Commission to better serve the needs of the public in an
economical and efficient mode.

The Commission continues to auction spectrum as authorized by the U.S. Congress in 1993.
 The House Budget Committee estimated at that time that auction receipts over a five-year
period would reach $10.2 billion. Subsequent estimates by the Congressional Budget Office
and Office of Management and Budget in 1994, estimated auction receipts of $8.1 billion
and $12.6 billion respectively. On April 5, 1996, the Commission announced that "the FCC
has reached the $20 billion mark in total auction revenues to be deposited with the U.S.
Treasury." In reacting to this milestone, Chairman Hundt stated that "We have exceeded all
expectations....Auctions have proven once again to be a success not only by awarding
licenses to those that value them most, but also by decreasing the national debt."

The Office of Inspector General (OIG) has dedicated itself to assisting the Commission as it
continues to improve its efficiency and effectiveness. The Inspector General reports directly
to the Chairman. The OIG is located in Room 752 in the FCC headquarters building at 1919
M Street, N.W., Washington, D.C. 20554. The office is staffed by the Inspector General
and four staff members: three auditors and a staff assistant who also serves as the hotline

_________________________________________________________________
October 1995 - March 1996                                                                 PAGE 3
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                FEDERAL COMMUNICATIONS
COMMISSION


technician. On April 14, 1996, the Chairman officially appointed Mr. H. Walker Feaster III
to be the permanent Inspector General. Mr. Feaster had been Acting Inspector General since
November 14, 1994. Mr. Feaster has held a variety of management positions since starting
with the FCC in 1974. His previous position was that of Associate Managing Director for
Program Analysis in the Office of the Managing Director. He holds a B.S. in Business
Administration from Drexel University, a M.S. in Government from Southern Illinois
University, and an M.B.A. in Finance from American University.

As reported in our previous semiannual report, on May 6, 1995, Robert G. Andary, who
served as the Counsel to the Inspector General and Director of Investigations for this office,
accepted the position of Inspector General of the Federal Labor Relations Authority
(FLRA). A vacancy announcement was issued on March 21, 1996, to fill this vacant
position. Pending the selection of a candidate, Paul Brachfeld continues to serve as the
Acting Director of Investigations while continuing in his ongoing capacity as the Director of
Audits. On April 3, 1996, a vacancy announcement for an additional audit position closed.
An applicant selection was made on April 23, 1996.

This report includes the major accomplishments and general activities of the OIG during the
period October 1, 1995, through March 31, 1996, in accordance with Section 5 of the
Inspector General Act of 1978, as amended 5 U.S.C. App. 3, § 5.




_________________________________________________________________
October 1995 - March 1996                                                              PAGE 4
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION




AUDITS

OVERVIEW
Two audit reports were issued by the Inspector General during this reporting period. On
March 18, 1996, the OIG issued the Final Audit of Fiscal 1994 Spectrum Auction
Implementation Cost (OIG Report No. 95-6). The report reflects the ongoing efforts of the
OIG to support the conduct of successful spectrum auctions and encourage the development
and implementation of strong financial management controls within the Commission.
Likewise, with the issuance on March 28, 1996, of the Report on the Follow-up Audit of
Physical Security of the Local Area Network, the OIG continues in its commitment to
provide management with an independent and knowledgeable insight into the operational
integrity of FCC information systems.

During this reporting period, OIG auditors also continued to provide significant input
towards the successful discharge of investigative case activity which resided within this
office. This office strongly endorses the concept of multidisciplinary teams. The Executive
Council on Integrity and Efficiency (ECIE), in their Annual Progress Report to the President
for FY 1995, focused upon this concept.              In expressing rational for utilizing
multidisciplinary teams, the ECIE incorporated the narrative drafted by this office in the
Annual Progress Report to the President for FY 1995, as follows:

       The nature of criminal activity is such that most illegalities are inspired
       by the potential for actual realization of financial gains. Often criminal
       activity is facilitated by weaknesses in internal controls in a program or
       operational area. As auditors are skilled in examining systemic weaknesses
       and recommending corrective action, it is the policy of this office that
       audit resources be extended to assist the investigative side of the office.

The auditors continued to serve as a reference tool for agency personnel in a myriad of areas
to include: financial operations; security and integrity over automated systems; and matters
pertaining to ethics and potential ethical violations.



_________________________________________________________________
October 1995 - March 1996                                                             PAGE 5
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                FEDERAL COMMUNICATIONS
COMMISSION




The OIG audit staff is currently involved in formatting an internet web site. The primary
focus of this initiative will be to provide information about the office and make all work
products available electronically.

SIGNIFICANT AUDIT ACTIVITY

1.FINAL AUDIT OF FISCAL YEAR 1994 SPECTRUM AUCTION
      IMPLEMENTATION COST (No. 95-6)

       The report was issued March 18, 1996

The Omnibus Budget Reconciliation Act of 1993, as amended on August 10, 1993, added a
new section 309(j) to the Communications Act of 1934. This amendment to the
Communications Act gave the FCC express authority to employ competitive bidding
procedures to choose from among mutually exclusive applications for initial licenses. In
Fiscal Year (FY) 1994, the Commission promulgated general rules governing the spectrum
auction process and specific rules governing the auction of licenses for the narrowband
Personal Communications Service (PCS) and Interactive Video and Data Service (IVDS)
licenses. On July, 29, 1994, the Commission completed its auction of ten narrowband PCS
licenses with a total high-bid value of $617,006,674. Concurrently with the narrowband
PCS auction, the Commission conducted an auction of 594 IVDS licenses. The total value
of bidding for these licenses, following adjustment for bidding credits, was $213,892,375.

In addition to providing the Commission authority to auction licenses, the amendment gave
the Commission the authority to receive reimbursement for the cost of implementing this
means of allocating spectrum. Section (8)(B) of the new section 309(j), entitled Retention of
Revenues, states the following:

"Notwithstanding subparagraph (A), the salaries and expenses account of the Commission
      shall retain as an offsetting collection such sums as may be necessary from such
      proceeds for the costs of developing and implementing the program required by this
      subsection. Such offsetting collections shall be available for obligation subject to the
      terms and conditions of the receiving appropriations account, and shall be deposited
      in such accounts on a quarterly basis. Any funds appropriated to the Commission for
      fiscal years 1994 through 1998 for the purpose of assigning licenses using random
      selection under subsection (i) shall be used by the Commission to implement this

_________________________________________________________________
October 1995 - March 1996                                                              PAGE 6
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION


       subsection."

The objective of this audit was to examine the system implemented by the Commission in
FY 1994 to record and report auction cost information and to determine whether the system
was providing timely, accurate and meaningful financial information to FCC management.
Auditors identified two areas -- personnel compensation and automation -- in which
improvements could be made to ensure that future auction activity corresponded with timely
and accurate financial information. Both areas involved the lack of adequate documentation
to support reported costs. Specifically, the lack of adequate documentation resulted in the
auditors developing questioned costs in the amount of $297,041.

The auditors noted that there was no evidence to suggest that the conditions identified in this
report resulted from any deliberate attempt to circumvent accounting controls. Rather, the
auditors were of the opinion that the Commission, in focusing it's energy and efforts towards
instituting a successful auction program in a short time frame, did not adequately address
administrative issues.

The final audit report contained three recommendations for corrective action to which full
concurrence by management was received. Furthermore, in his response to the draft report
dated January 31, 1996, the Managing Director represented to the OIG that corrective
measures had already been implemented to address each of the audit recommendations.

While not within the scope of this audit report, it should be noted that the FCC has
completed four additional spectrum auctions, while two auctions remain in process as of the
close of this reporting period. On April 5, 1996, the Commission announced that the FCC
had reached the $20 billion mark in total auction revenues to be deposited with the U.S.
Treasury.

2.     REPORT ON THE FOLLOW-UP AUDIT OF PHYSICAL SECURITY OF THE
       LOCAL AREA NETWORK (No. 96-1)

       The report was issued March 28, 1996

On March 30, 1994, the OIG issued the Report on the Audit of Physical Security of the
Local Area Network. In that report, the OIG concluded that the FCC had not established
internal controls which adequately protect components of the FCC network from physical
and environmental threats. The objective of this audit was to determine whether the

_________________________________________________________________
October 1995 - March 1996                                                               PAGE 7
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION


Commission had implemented a corrective action program in response to the
aforementioned report. An additional objective was to evaluate the controls in place to
ensure the protection of network microcomputer work stations and laptops from physical
and environmental threats.

During the review, the auditors identified significant improvements in the Commission's
computer security program. For example, subsequent to the issuance of our 1994 report, the
FCC completed a network risk assessment and developed a comprehensive security 2-year
plan. In addition, the Commission issued a final version of the "FCC Computer Security
Directive." This Directive provides a comprehensive framework for managing computer
security on the variety of hardware and software platforms used by the FCC.

Although the OIG recognized significant progress in the Commission's computer security
program, the auditors found that further improvements are necessary to protect the network
from physical and environmental threats. Towards that goal, the OIG recommended
implementation of a series of controls to improve the security over network hardware. The
Managing Director concurred with the two audit recommendations for corrective actions.

The OIG also examined the management of laptop computer resources. Prior to 1994, a
limited number of laptop computers resided within the FCC. In the past two years, as a part
of the FCC's automation initiative, the FCC purchased over two hundred (200) additional
laptop computers with an acquisition cost ranging from $2,455 to $6,149 per unit. In order
to evaluate accountability over laptop computers, the auditors sought to physically verify a
statistically derived sample of the overall population of three-hundred and seven (307) units.
 Using a statistical model based upon a ninety-five percent (95%) implied confidence factor
and an acceptable error rate of five percent (5%), the auditors selected fifty-four (54) laptop
computers for physical verification. Of the sample population, six (6) were not located, one
(1) was reported as stolen and eleven (11) were not physically produced for physical
verification.

Based upon review of internal procedures, results of interviews and sample results, the
auditors determined that the Commission had not established an adequate program for
managing laptop computer resources commensurate with the financial investment and
potential for loss of data. In order to address this condition, the OIG developed and
addressed two recommendations for corrective action to the Managing Director. The
Managing Director concurred with both recommendations.


_________________________________________________________________
October 1995 - March 1996                                                               PAGE 8
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                FEDERAL COMMUNICATIONS
COMMISSION




INVESTIGATIONS


OVERVIEW
Investigative matters pursued by this office are generally initiated as a result of complaints
alleging fraud, waste, abuse, corruption or mismanagement by FCC employees, or affecting
the programs or operations of the Commission. Upon receipt of a complaint which alleges
an administrative or criminal violation, the OIG usually conducts a preliminary inquiry to
determine if an investigation is warranted. Investigations may involve possible violations of
regulations regarding employee responsibilities and conduct, Federal criminal law, and other
regulations and statutes pertaining to the activities of Commission employees. Investigative
findings may lead to criminal prosecution, civil prosecution, or administrative action.

The OIG maintains a formal hotline for referral of potential waste, fraud, abuse and
mismanagement of FCC programs or operations. All FCC staff were notified of the
establishment of the hotline and a Public Notice was issued by the Commission. The hotline
number, 202-418-0473, is administered by the Special Assistant to the Inspector General.

INVESTIGATIVE ACTIVITY

During this reporting period, OIG investigative activity focused on two major investigations.
 One investigation involved the alteration of time and attendance card data by an FCC
employee. This case is outlined in detail below. The second investigation remains in an
ongoing status and, as such, no further details are provided in this semiannual report. In
addition, the OIG continued to monitor a case previously referred to the Department of
Justice and closed three additional investigative cases.

Time and Attendance Fraud on the Part of an FCC Employee
Status: Closed March 14, 1996


_________________________________________________________________
October 1995 - March 1996                                                              PAGE 9
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION


On October 24, 1995, an investigative referral was made to the OIG involving potential
fraudulent activity on the part of personnel within the Common Carrier Bureau (CCB).
Details of the allegation involved the falsification of payroll data by one or more
timekeepers. The OIG performed investigative work in this area culminating in the issuance
of an Investigative Report to the Chairman and other senior staff members dated March 14,
1996.

The Investigative Report identified that the FCC had not established internal controls
necessary to address deficiencies in the time and attendance system designed and maintained
by the National Finance Center, a component of the Department of Agriculture. Evidentiary
matter suggests that an FCC employee exploited these internal control weaknesses and was
thus able to receive payments in the amount of $1002.76 for 86 hours worked when in
actuality she should have been in a Leave Without Pay (LWOP) or Absent Without Leave
(AWOL) status.

In addition to directing the FCC to initiate action to recover funds fraudulently disbursed, the
OIG recommended that administrative action be taken against two FCC employees
including the financial beneficiary of the fraud. The Investigative Report also provided
management with two recommendations to mitigate the potential for future instances of
payroll fraud on the part of time keepers. Management concurred with all recommendations
and is currently acting to terminate the primary subject of the investigation.

Allegation of Discrimination by Mass Media Bureau in Licensing an FM Radio Station
Status: Closed March 19, 1996

In this reporting period, the OIG closed an investigation brought by an applicant for an
FM radio station in Anchorage, Alaska. The applicant claimed that "(t)he Chiefs of the
Audio Services, Mass Media Bureau, have applied the rules of competing for a new FM
radio station in Anchorage, Alaska in favor of fraudulent applicants." The investigation
found that program officials appropriately invoked Section 73.211 of the Commission's
Rules, 47 C.F.R. § 73.211, when it dismissed the complainants application. The
Commission found that four of the seven other applicants for the Anchorage station
proposed compliance with minimum Class C FCC requirements while the complainant
sought a waiver from these requirements. No evidence was identified during the
investigation of irregularities on the part of any FCC employees.



_________________________________________________________________
October 1995 - March 1996                                                               PAGE 10
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION




Allegation of Improper Conduct Within the International Bureau
Status: Closed January 29, 1996

At the request of the Chief, International Bureau, the OIG performed investigative work in
order to determine the basis for an allegation that FCC employees had engaged in improper
conduct. An FCC employee within the International Bureau had informed the Chief,
International Bureau that she had been solicited to use her official position to: (1) illegally
issue visas; (2) choose companies owned by friends and relatives for fellowship programs or
choose unqualified candidates for training with personal travel in mind; and (3) engage in
actions which would be illegal.

Based upon interviews of the claimant and other effected personnel a determination was
made that no basis existed to support these allegations. Furthermore, no evidentiary matter
was derived which would show that any illegality had occurred on the part of any FCC
employee.

Potential Violation of 18 U.S.C. § 207 (a) (2)
Status: Open

As reported in our previous semiannual report, on November 4, 1994, the OIG was made
aware of a possible violation of the two-year post-employment restriction of 18 U.S.C. § 207
(a) (2) by a former high level FCC employee. This matter was initially developed and
forwarded on December 5, 1994, to the Public Integrity Section, Criminal Division,
Department of Justice. During this reporting period the OIG concluded investigative activity
and prepared a summary report to the Public Integrity Section, Criminal Division,
Department of Justice. The OIG awaits resolution in this matter, and thus, is maintaining
this investigation in an open status.




_________________________________________________________________
October 1995 - March 1996                                                               PAGE 11
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION




MANAGEMENT AND ADMINISTRATION


H. Walker Feaster III was appointed Inspector General on April 14, 1996. Mr. Feaster, as
Acting Inspector General during the six-month reporting period covered by this report,
initiated substantive work to further focus the work of this office towards addressing the
needs of the Agency. That is, to ensure the integrity and efficiency of FCC operations
during a period in which our mission is rapidly expanding and our fiscal resources are
significantly constrained.

The FCC is an organization that is in the process of reinventing itself in order to meet the
ever changing needs of the customers of the Commission, and the new legislation which is
being enacted by Congress. In the FY 1994-1995 time frame, the focus of the FCC was
directed at meeting the needs of our ongoing customers while successfully implementing the
auction program. This functional universe has been further expanded in the current year
with the passage of the 1996 Telecommunications Act.

The Commission is in the process of implementing additional automated systems to speed
customer service through electronic filings, call-center operations, internet access to core
FCC data bases and numerous other facets of agency operations. The OIG is acting to bring
our audit universe up to speed with the new look of the FCC. Audits are being planned in
new program areas which traditionally house the greatest levels of risk, constitute significant
financial investment and maintain high visibility. The OIG is revising the Strategic Plan to
better address the new look FCC and will be issuing new directives both internal to the OIG
and external to the other Bureaus and Offices.

The OIG will attempt to operate in a proactive mode in areas in which this office can make a
positive impact. One example is the procurement function. An additional audit position has
been allocated to this office in order to obtain an auditor with significant experience in the
U.S. Government procurement arena. The focus of this position will be directed towards
pre-award contract audits, financial capability of prospective contractors, validity and
support of invoices versus status of deliverables and contract close-out activities. The goal is
to assist management in getting the best deliverables possible at the most economical cost to
the taxpayer.
_________________________________________________________________
October 1995 - March 1996                                                               PAGE 12
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION




The Inspector General has also requested a peer review in the coming reporting period in
order to ensure that this office is operating in full compliance with applicable regulations and
laws.




_________________________________________________________________
October 1995 - March 1996                                                               PAGE 13
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION




SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a) OF THE INSPECTOR
GENERAL ACT


       The following summarizes the Office of Inspector General response to the twelve
specific reporting requirements set forth in Section 5(a) of the Inspector General Act of
1978, as amended.

1. A description of significant problems, abuses, and deficiencies relating to the
administration of programs and operations of such establishment disclosed by such
activities during the reporting period.

       No such problems, abuses, or deficiencies were disclosed during the reporting period.

2. A description of the recommendations for corrective action made by the Office during the
reporting period with respect to significant problems, abuses, or deficiencies identified
pursuant to paragraph (1).

       No recommendations were made. See the response to paragraph (1).

3. An identification of each significant recommendation described in previous semiannual
reports on which corrective action has not been completed.

       No significant recommendations remain outstanding.

4. A summary of matters referred to prosecutive authorities and the prosecutions and
convictions which have resulted.

       An investigation which was opened during the previous reporting period and referred
to the U.S. Department of Justice pursuant to section 4(d) of the Inspector General Act
remains in an open status. The investigation involves a potential violation of post-
employment restriction of 18 U.S.C. § 207 (a) (2).

5.     A summary of each report made to the head of the establishment under section
(6)(b)(2) during the reporting period.


_________________________________________________________________
October 1995 - March 1996                                                             PAGE 14
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION


       No report was made to the Chairman of the FCC under section (6)(b)(2) during the
reporting period.

6. A listing, subdivided according to subject matter, of each audit report issued by the
Office during the reporting period, and for each audit report, where applicable, the total
dollar value of questioned costs (including a separate category for the dollar value of
unsupported costs) and the dollar value of recommendations that funds be put to better use.

       Each audit report issued during the reporting period is listed according to subject
matter and described in part III, above.

7. A summary of each particularly significant report.

       Each audit report issued during the reporting period is summarized in part III, above.

8. Statistical tables showing the total number of audit reports with questioned costs and the
total dollar value of questioned costs.

       The required statistical table can be found at Attachment A to this report.

9. Statistical tables showing the total number of audit reports with recommendations that
funds be put to better use and the dollar value of such recommendations.

       The required statistical table can be found at Attachment B to this report.

10. A summary of each audit report issued before the commencement of the reporting
period for which no management decision has been made by the end of the reporting period
(including the date and title of each such report), an explanation of the reasons such
management decision has not been made, and a statement concerning the desired timetable
for achieving a management decision on each such report.

       No management decisions fall within this category.

11. A description and explanation of the reasons for any significant revised management
decision made during the reporting period.

       No management decisions fall within this category.

_________________________________________________________________
October 1995 - March 1996                                                               PAGE 15
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL              FEDERAL COMMUNICATIONS
COMMISSION




12. Information concerning any significant management decision with which the Inspector
General is in disagreement.

       No management decisions fall within this category.




_________________________________________________________________
October 1995 - March 1996                                                            PAGE 16
